HHS/OIG-Audit--"Illinois - Medicaid Claims for Patients Age 22 to 64 in State Operated Institutions for Mental Diseases, (A-05-91-00023)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Illinois - Medicaid Claims for Patients Age 22 to 64 in State Operated
Institutions for Mental Diseases," (A-05-91-00023)
December 3, 1991
Complete Text of Report is available in PDF format
(140 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The Illinois State Medicaid Agency needs to make a financial adjustment of
$6,252,884 (Federal share $3,126,442) for claims made on behalf of patients
from age 22 to 64 in State operated mental facilities. These claims, made from
January 1983 through April 1988, were not available for medical assistance under
Medicaid.